HHS/OIG - Audit,"Audit of Hospital Patient Transfers Paid as Discharges and Claimed Under the North Carolina Medicaid Program,"(A-05-03-00041)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Hospital Patient Transfers Paid as Discharges and Claimed
Under the North Carolina Medicaid Program," (A-05-03-00041)
May 17, 2004
Complete
Text of Report is available in PDF format (447 kb). Copies can also be
obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether inpatient
hospital claims for patients transferred from one hospital to another on the
same day were properly coded and paid in accordance with North Carolina's Medicaid
reimbursement requirements.  We identified 817 claims, submitted by 111
hospitals, that appeared to be transfers incorrectly coded as discharges, which
resulted in overpayments to the transferring hospitals.  We limited our
medical record review to 564 claims from 35 hospitals with total potential
overpayments greater than $20,000 or with neonatal diagnosis related group
(DRG) claims with an estimated overpayment per claim greater than $5,000.  Of
these, we determined that 512 claims, totaling $4.7 million at 35 different
hospitals, were  transfers incorrectly coded as discharges.  After
recalculating the correct reimbursement for these transfers, we estimated that
overpayment to the transferring hospitals amounted to $1,849,683 (Federal share).  We
recommended a financial adjustment for this amount.  We also recommended
that North Carolina reassert Medicaid guidance to hospitals, emphasizing the
importance of coding the correct patient status and the appropriate DRG with
special consideration given to the transfer of newborns, and consider implementing
a postpayment edit to detect improperly coded transfers.  North Carolina
concurred with our findings and took appropriate corrective action.